<html>
<title> - OIL AND GAS TECHNOLOGY INNOVATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                   OIL AND GAS TECHNOLOGY INNOVATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2017

                               __________

                           Serial No. 115-12

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov


                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-468 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  













              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
JIM BRIDENSTINE, Oklahoma            JERRY MCNERNEY, California
STEPHEN KNIGHT, California, Vice     PAUL TONKO, New York
    Chair                            JACKY ROSEN, Nevada
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              AMI BERA, California
NEAL P. DUNN, Florida                MARK TAKANO, California
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas





















                            C O N T E N T S

                              May 3, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Marc A. Veasey, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    16
    Written Statement............................................    18

                               Witnesses:

Mr. Edward Johnston, Senior Vice President for Research and 
  Development, GasTechnology Institute
    Oral Statement...............................................    20
    Written Statement............................................    23

Dr. Dave Brower, Founder and President, Astro Technology
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. Walker Dimmig, Principal, 8 Rivers Capital, LLC
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Ramanan Krishnamoorti, Interim VP/VC for Research and 
  Technology Transfer, Univ.of Houston & Univ. of Houston System; 
  and Chief Energy Officer University of Houston
    Oral Statement...............................................    44
    Written Statement............................................    46

Discussion.......................................................    58


 
                   OIL AND GAS TECHNOLOGY INNOVATION

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Randy Weber 
[Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman  Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``Oil and Gas 
Technology Innovation.'' I recognize myself for five minutes 
for an opening statement.
    Today, we will have the opportunity to hear about exciting 
new research and developments in oil and gas. Fossil fuels 
continue to be America's dominant energy source and provide 
over 80 percent of the energy around the world. It's no 
surprise that we have a robust industry here at home investing 
in developing the next generation of technologies to help 
produce American fossil fuels more efficiently, more safely, 
and at a lower cost for American consumers.
    Our hearing today will highlight individuals and private 
sector organizations taking a leading role in oil and gas 
technology innovation. Much like our Committee roster, we see a 
lot of our Texas innovators on our panel today.
    As we worked to put together today's hearing, I quickly 
learned we could fill this room with innovators from across 
Texas and the country who are exploring new ways to improve a 
broad range of technologies that can help revolutionize this 
industry. My staff and I have had the opportunity to talk to 
researchers from the University of Texas, Texas A&M, University 
of Houston, Rice University, and the DOE national labs, all of 
whom are conducting research that is driven by industry needs.
    We heard about research in materials science, to develop 
materials resistant to the high temperature and pressure 
environments that occur particularly in offshore drilling. We 
even learned about the unique applications of nanotechnology to 
monitor the subsurface, and basic research in geology and 
computing that allows industry to make better decisions about 
when and where they drill.
    I want to thank Dr. Ramanan Krishnamoorti--am I saying that 
right? Close enough, huh? Okay. You're very kind--from the 
University of Houston for testifying today and representing the 
incredible research going on in my home State. I'm a graduate 
of U of H myself, Doctor, by the way, so thank you for being 
here. I look forward to hearing--the Cougars, yes. I look 
forward to hearing your insight on the nexus between this basic 
and fundamental research and how it applies in the oil and gas 
industry.
    This brings us to the appropriate role for the Department 
of Energy. The Department has contributed valuable research in 
this field for decades. Congress first funded DOE's 
unconventional oil and gas research programs beginning in 1976, 
and collaboration with industry has indeed been a core part of 
DOE's research efforts. Historically, the Department has 
conducted basic and early-stage research, collecting long-term 
data and maintaining expertise to provide industry with the 
tools necessary to achieve technology breakthroughs.
    Industry then led the next step, building on DOE research, 
to commercialize oil and gas technology. Using this 
collaborative approach, DOE research conducted by the national 
labs contributed to the development of key technology for 
hydraulic fracturing and revolutionized the American economy in 
the process.
    Today, DOE continues to make targeted investments in early-
stage unconventional oil and gas research, while efforts to 
deploy new technology are consistently led by the private 
sector. The Department also contributes funding to larger, 
industry-led projects measuring seismic data and analyzing 
geological formations like the Gas Technology Institute's 
research to maximize the efficiency of hydraulic fracturing in 
the Permian basin, which we're going to hear more about in 
testimony today.
    As we approach the budget season, it is our job as an 
authorizing committee to make sure that we have a clear picture 
of what federal research investments provide the most bang for 
our buck.
    We know that industry has the skills and resources to fund 
technology commercialization, but they often don't have the 
tools to conduct early-stage research and maintain that 
historical data like the DOE national labs can. With that in 
mind, DOE should prioritize the basic and early-stage research 
that provides data and analytical tools to researchers and 
allows the private sector to commercialize groundbreaking 
technology.
    I want to thank our witnesses for testifying today, and I 
look forward to hearing more about your innovative research.
    [The prepared statement of Chairman Weber follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman  Weber. And with that, I will recognize my good 
friend from Texas, Mr. Veasey.
    Mr.  Veasey. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing and thank you for having the 
witnesses here today. It looks like we have a really--a good 
distinguished panel, glad that there are two Texans leading 
this discussion on energy and oil production technology, and it 
really is amazing how that technology has played such a major 
part in the world changing just in the last two years. It 
really is very, very miraculous.
    And as you know, the State of Texas represents the largest 
share of the U.S. oil and gas industry. And everyone here knows 
that we produce more crude oil and we also produce a lot of 
natural gas. And this industry has been a major economic driver 
for our State for a long time, employing hundreds and thousands 
of Texans. In order to continue this economic success, it is 
necessary for our State to lead the way in making oil and gas 
cleaner and safer for the environment and public health.
    I'm happy to see that everyone on the panel today can speak 
to the crucial importance of the environmental mitigation in 
the extraction production and consumption of oil and gas. I 
look forward to hearing everyone's insights and ideas. 
Because--even though there has been some disagreement, we all 
know for certain that human activity has contributed to the 
warming of the climate, and the scientific community has made 
clear that we all need to take some sort of action on climate 
change.
    And so what does this mean for the oil and gas industry? 
The shale gas boom can take credit for much of the U.S. 
emissions reductions over the last five years. Much of the 
power generation sector has switched to natural gas, and we've 
enjoyed the benefits of this cleaner-burning resource.
    However, this is not a sufficient long-term solution to 
lowering our emissions. Methane, the largest component of 
natural gas, has 84 times the heat-trapping capacity of carbon 
dioxide over a 20-year span. Aging infrastructure, greater 
storage demand, and a growing pipeline network present a number 
of challenges in monitoring and preventing these leaks.
    The most notable leak since the shale gas boom occurred in 
2015 at the Aliso Canyon storage facility in California. The 
leak resulted in the release of 109,000 metric tons of methane 
into the atmosphere. While methane is colorless and odorless, 
we know the impact it can have on the environment and the 
health of our own communities, as evidenced by this incident 
that we saw in California.
    Methane leaks are unique in that the environmental 
incentives align with the profit incentives of the industry, 
but it also can mean a loss of profit for industry. But working 
together, we can provide the incentives and research necessary 
to drastically reduce methane leaks by closely aligning the 
industry's bottom line with our urgent need to protect the 
environment.
    The increased reliance on natural gas also highlights 
another long-term challenge, and that is the deployment of 
carbon capture technologies. The use of this resource still 
pumps out greenhouse gases at an unsustainable rate, and that 
is why we must accelerate the deployment of carbon capture 
technologies not only for coal-fired plants but also for 
natural gas power generation.
    According to the International Energy Agency, carbon 
capture and storage technologies are vital to enabling a robust 
global response in addressing the threat of climate change. The 
necessity is reflected in the Paris climate negotiations, and 
we are not short on innovative concepts.
    I particularly look forward to hearing from Mr. Dimmig on 
NET Power's unique zero-emissions design that they are trying 
to commercialize in Texas in the next few years.
    And before I finish, I would also like to note that during 
today's dialogue, we may hear a few inaccurate or misleading 
statements comparing incentives for fossil fuel versus those 
for various forms of renewable energy and energy efficiency. 
The most obvious inaccuracy in this criticism is the 
presumption that all renewable energy is the same. It's not, as 
if solar, wind, geothermal, and hydropower are not all unique 
forms of energy generation.
    Claiming a lack of parity in research and development 
funding by comparing fossil energy research budget lines to 
budgets for efficiency and all of these renewable sources 
lumped together is not only misleading, it ignores the basic 
fact of how our energy markets work. Fossil energy has enjoyed 
strong government support for the past century, including tax 
incentives, subsidies, research, development funding. In fact 
the current boom in natural gas production can be traced back 
to research on horizontal drilling and hydraulic fracturing 
pioneered by the Department of Energy in the 1970s.
    Moreover, fossil energy commands strong control over the 
electric generation and transportation markets, and yet some of 
my Republican colleagues cry foul when the biggest energy 
companies in the world do not receive the same dollar-for-
dollar government support as all other energy industries 
combined.
    I strongly support government research and development to 
advance energy efficiency, the wide range of renewable energy 
technologies, and nuclear power. However, this does not mean 
that the Department of Energy can't or shouldn't support a 
robust portfolio of fossil energy research and development as 
well. This area of research requires a strong partnership 
between government and industry focused on mitigating the 
environmental impacts of fossil energy generation.
    The Department of Energy's work in this space is vital to 
our environmental priorities. I hope we have the opportunity 
this Congress to collaborate with our colleagues on the 
majority in examining how we can prioritize and expand the 
Department's R&D in this critical area.
    Mr. Chairman, thank you for your patience. I know I went 
over my time there, and I yield back the balance of my time, 
and again want to thank the panel for being here.
    [The prepared statement of Mr. Veasey follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Chairman  Weber. Thank you, Mr. Veasey.
    I now recognize the Chairman of the Full Committee, Mr. 
Smith.
    Chairman  Smith. Thank you, Mr. Chairman.
    I want to say this is an important subject today, and I 
appreciate you having a hearing on it.
    Today, we will discuss recent breakthroughs in oil and gas 
technology. Innovators continue to build on decades of 
groundbreaking successes in oil and gas production, maintaining 
America's technology leadership. This area of research is 
particularly successful due to continued collaboration between 
industry, universities, and national labs. We also will discuss 
the appropriate balance between the private sector leadership 
and the Department of Energy in applied research and technology 
development.
    The oil and gas industry has a long and successful history 
of maximizing the research conducted by DOE to further 
technological breakthroughs. Before hydraulic fracturing and 
horizontal drilling revolutionized oil and gas production, 
basic and early-stage research funded by the Department 
provided valuable tools and knowledge to industry. In the 
1980s, Sandia National Lab collaborated with industry to 
develop the primary drill bit used in horizontal drilling. And 
Sandia National Lab's basic research in geology led to the 
development of microseismic fracture mapping techniques for 
hydraulic fracturing. Industry partners adapted these 
techniques for commercial use and deployed technology to 
maximize energy production across the country.
    The partnership between DOE and the private sector must 
have the right structure for success. DOE is best suited to 
provide the early-stage research that allows industry the 
opportunity to commercialize and use new technology in the 
field. This approach allows for the most cost-effective and 
efficient technology to be deployed by oil and gas companies. 
We don't need mandates to motivate producers to use the most 
efficient production technology.
    Technology that improves development often reduces the 
footprint and environmental impact of energy development. It 
also lowers costs for consumers. R&D is a great way to improve 
our environment and power our economy. Federally funded 
research in one area also can provide economic benefits and new 
technology where we least expect it.
    One of our witnesses today--David Brower, the founder of 
Astro Technology--spent his career as an engineer working with 
NASA and the Department of Defense. After years of working on 
rocket propulsion and safety, he discovered that he could 
effectively apply many of the sensor technologies used in the 
aerospace industry to improve safety in oil and gas 
development. This is the kind of groundbreaking technology that 
we cannot predict when we fund basic and early-stage research.
    Like many of my colleagues, I share a commitment to the 
long-term use of our nation's most abundant and affordable fuel 
source. DOE's fossil energy research programs can pave the way 
for industry to develop the next generation of technologies. 
But for this partnership to be a success, industry must 
continue to take a leading role.
    I look forward to a discussion about what policies Congress 
and DOE should pursue to encourage more industry-led research 
and development efforts. In Congress, we have the 
responsibility to ensure the efficient and effective use of 
American tax dollars. By investing in early-stage research and 
encouraging strategic partnerships between DOE and industry, we 
will ensure that our vast natural resources will continue to 
provide affordable and efficient fuel for the American economy.
    [The prepared statement of Chairman Smith follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Chairman  Smith. Mr. Chairman, before I close, I want to 
recognize James Danford, who is sitting right behind me, and he 
is our Science Committee Legal Assistant and Speechwriter who 
has helped me at numerous committee hearings and markups over 
the past five years. James' last day on the Committee will be 
next Friday.
    He has been attending Georgetown Law School at night while 
working at the Science Committee full-time and will graduate 
May 21.
    James and his wife Christa, my Executive Assistant, will be 
moving back to Texas for James to take a job at a Houston law 
firm. James and Christa have each been on my staff for almost 
six years. They are expecting their first child in July. So we 
wish them health, happiness, and success.
    And James will you stand up and let us give you some 
applause here?
    Chairman  Weber. So, James and did you meet your wife here 
on the Science Committee?
    Mr.  Danford. No, we've been dating since high school.
    Chairman  Weber. Okay. So it took you a long time. I see 
how you are.
    So thank you, Mr. Chairman. And I now recognize the Ranking 
Member of the Full Committee for a statement. Ms. Johnson?
    Ms.  Johnson. Thank you very much. Let me congratulate 
James and say good wishes for the future. And thank all of our 
witnesses, Mr. Chairman, for being here.
    This is an interesting topic. I think it's interesting to 
note that both the Chairman and Ranking Member of the Full 
Committee and the Subcommittee Chairman and Ranking Member are 
all Texans, and the Secretary of Energy now is also a Texan. So 
you can tell that there is interest in this topic in Texas.
    Certainly, the oil and gas sector is in is one area in 
which we see how advances in science and engineering can 
produce large-scale economic value, and our federal R&D 
agencies have played a historic role in this process. Just over 
a decade ago, we had little idea of the fossil resources that 
would be available to us today.
    However, due to some critical research investments made by 
the Department of Energy over 40 years ago, coupled with rising 
oil prices and in previous decades, the American economy 
underwent the shale gas revolution, bringing natural gas 
resources online and with it a sharp increase in domestic oil 
production.
    The DOE--that program in DOE wrapped up in the early '90s 
when a private company took the research performed by DOE and 
used it to ignite the oil and gas boom we see today. I think my 
colleagues would agree that that is the model of DOE's energy 
technology programs that we all hope to see: federal 
investments shepherding transformative technologies to the 
marketplace even when the endpoint is not clear at the 
beginning of the process.
    That brings us to what should be fundamental questions 
today. Where should the Department of Energy be investing 
limited dollars in this area? If the standard of identifying of 
a government role rests in whether the private industry has the 
capacity to invest in R&D, then I think the answer to the 
question of DOE investments in oil and gas is that the federal 
role should be very limited. After all, it is hard to think of 
a sector that is much more commercial and on average more 
profitable than the oil and gas industry. For this reason, I 
believe the Department should focus its investments on 
environmental mitigation. At present there is little incentive 
for industry to spend major R&D dollars to protect the 
environment.
    If this hearing is intended to highlight the importance of 
oil and gas to the economy, hopefully, I can save us some time. 
I am from Dallas. Oil and gas will play an important role in 
our nation's economy for decades to come. My hope is that our 
outcome of these hearings will be to push the present 
Administration to reconsider its position to drastically reduce 
R&D funding for fossil energy. I would support that endeavor as 
long as it comes along with strong support of DOE's other 
energy technology programs. When it comes to R&D funding, 
Republicans and Democrats should be speaking with one voice. 
Investments in R&D benefit our nation.
    In closing, I would like to challenge the current 
Administration and our colleagues on this Committee to be 
forward-looking in our push to develop the next-generation 
energy economy. Drilling our way to economic growth while 
ignoring the long-term impacts cannot be the answer as we face 
a warming climate and the significant consequences that come 
along with that. Our environment and the health of the public 
is on the line.
    And so I thank you, Mr. Chairman, and I yield back the 
balance of my time.
    [The prepared statement of Ms. Johnson follows:]
    
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  Chairman  Weber. I thank the Ranking Member, and I will 
introduce the panel.
    Our first witness today is Mr. Edward Johnston, Senior Vice 
President for Research and Development at the Gas Technology 
Institute. Mr. Johnston received his bachelor's degree in 
mechanical engineering from Mississippi State University and 
his MBA from University of Chicago's Booth School of Business.
    And our next witness today is Mr. David Brower, founder and 
President of Astro Technology. Mr. Brower received both his 
bachelor's degree in material science and mechanical 
engineering and a master's of science degree from the 
University of Utah.
    And then our next witness is Mr. Walker Dimmig, Principal 
at 8 Rivers Capital, LLC. Mr. Dimmig received his bachelor's 
degree in political science from Middlebury College.
    And our last witness is Dr. Ramanan Krishnamoorti, Interim 
Vice President and Interim Vice Chancellor for Research and 
Technology Transfer at the University of Houston and University 
of Houston System--go Cougs--as well as Chief Energy Officer at 
the University of Houston. Dr. Krishnamoorti obtained his 
bachelor's degree in chemical engineering from the Indian 
Institute of Technology Madras and doctoral degree in chemical 
engineering from Princeton University.
    I now recognize you, Mr. Johnston, for five minutes to 
present your testimony.

                TESTIMONY OF MR. EDWARD JOHNSTON,

      SENIOR VICE PRESIDENT FOR RESEARCH AND DEVELOPMENT,

                    GAS TECHNOLOGY INSTITUTE

    Mr.  Johnston. Thank you very much, Chairman Weber, Ranking 
Member Veasey, Chairman Smith, and Ranking Member Johnson, and 
the rest of the Members of the Subcommittee.
    On behalf of GTI, I'd like to thank you for the opportunity 
to testify before you today regarding innovation in the 
upstream oil and gas sector. My name is Eddie Johnston. I'm the 
Senior Vice President of Research and Technology Development at 
GTI, and we're an independent, not-for-profit R&D organization. 
Our vision is to turn raw technology into practical energy 
solutions that have meaningful impact for both the economy and 
the environment.
    I'm here to talk about shale research, and while shale 
development seems like an overnight occurrence to most, decades 
of research and cooperative field experiments by GTI and DOE 
underpin the technical complexities of producing this resource.
    Shale rock has very low permeability, so stimulation can be 
very challenging and require significant energy. In shale 
formations, the recovery rate is typically below 20 percent for 
gas and ten percent for oil and sometimes even much lower. This 
is the grand challenge. Field experiments we've conducted 
indicate that as many as 80 percent of fracture treatments did 
not significantly contribute to overall production. Effective, 
yes; efficient, no. This inefficiency has direct environmental 
implications, and by optimizing fracture efficiencies, fewer 
wells will need to be drilled, which leads to fewer trucks, 
less water, reduced emissions, and less community impact.
    To address these issues, GTI launched the Permian project, 
our hydraulic fracturing test site in West Texas. Our goal is 
simple in concept: substantially advance the hydraulic 
fracturing process to optimize well spacing so fewer wells are 
needed. The problem, though, is multifaceted. Subsurface 
completion science continues to be a complex process with many 
variables that affect the locations where fractures propagate, 
their dimensions, and their ability to enhance production. 
Direct and reliable data is still needed about the size, shape, 
and distance that hydraulic fractures actually propagate.
    Optimizing resource recovery techniques requires input from 
the best and brightest from industry, universities, national 
labs, research institutes, and the only way to realistically do 
this is via public-private partnership. So with the assistance 
of a $7.4 million cooperative agreement from the Fossil Energy 
Office, GTI was able to pull together a partner in Laredo 
Petroleum that provided a test site and personnel in the 
Permian, along with $100 million of microseismic and other 
background data.
    A joint industry partnership of Chevron, Conoco Phillips, 
Core Labs, Devon, Discovery Natural Resources, Encana, Energen, 
Halliburton, Shell, and TOTAL that sponsored the additional $16 
million of research work and also provided subject matter 
experts to contribute to the scope and a team of leading 
researchers from the University of Texas, The Bureau of 
Economic Geology, and NETL. And over this 11-well experiment, 
more than 400 fracture stages were monitored, and we continue 
to study the production from these fractures today.
    But the key differentiator of this work is the $6 million 
core well as we captured 600 feet of unique core through 
fracture zones by drilling a one-of-a-kind slant core well. 
More people have actually examined rocks from the moon than 
they have through fractured core. Extracting core of this 
magnitude is an expensive and risky undertaking, but this 
ground truth evidence is critical to understanding fractures 
and improving models and to consider how predictive analytics 
can improve the process. Important data about propagation and 
proppant transport dynamics will lead to the design of optimal 
fracture treatments and ultimately ideal well spacing. Many of 
the findings will likely be transferable to other basins, but 
shale is a heterogeneous resource, so much work is still needed 
to be done.
    We have planned future work in the Permian and signed a 
letter of intent with BHP Billiton for a test site in the 
Delaware basin, part of the Permian that is deeper, at higher 
pressures and temperatures, and different permeability than the 
Laredo site. Interested partners are looking for a commitment 
from DOE that signals continued support for this type of 
important research. This investment will be the catalyst for 
the next phase of learning.
    In conclusion, shale has recalibrated world energy markets, 
helped resurrect our economy, provided U.S. consumers clean, 
affordable energy. Much has been accomplished by the mechanical 
innovations by industry, but the subsurface science work is 
clearly incomplete. Continued field experiments are critical to 
achieve desired recovery rates for more responsible 
development. The involvement of the public funding ensures the 
results are ultimately shared broadly rather than being held by 
a select few. This will allow us to maximize our national 
energy resource and accelerate our path to energy security and 
independence.
    Thank you again for this opportunity to speak today, and 
I'd be happy to answer any questions when it's the correct 
time.
    [The prepared statement of Mr. Johnston follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman  Weber. Thank you, Mr. Johnston. Dr. Brower, 
you're recognized for five minutes.

                 TESTIMONY OF DR. DAVE BROWER,

                     FOUNDER AND PRESIDENT,

                        ASTRO TECHNOLOGY

    Dr.  Brower. Mr. Chairman, Members of the Committee, thank 
you for having me here this morning. As mentioned, my name is 
David Brower. I have much experience in science and technology, 
and I've spent my 37-year career working on rocket technology 
for defense and space applications. I've also worked in the 
energy industry for over the past 20 years.
    The combination of aerospace, energy, and government 
experience has allowed me to develop and implement entirely new 
high-technology methods into the energy industry. The primary 
objective of my work has been to identify and prevent potential 
problems before they occur. In doing so, we should be able to 
mitigate environmental contamination from hydrocarbon spillage 
and offshore and land-based operations, for example, to head 
off catastrophic events such as the major oil spill in the Gulf 
of Mexico during summer of 2010 and many less publicized 
smaller spills our candidates also. The innovative methods also 
improve safety and help increase production and operation 
capabilities.
    Since I formed Astro Technology in 1994, I have been a 
committed advocate of strong working relationships between 
government and industry. Currently, we work under a Space Act 
agreement with NASA. The resulting work activity has been 
instrumental in transfer of high-technology methods into the 
energy industry. Twice--in 2004 and 2015--our efforts have been 
highlighted in NASA's annual spinoff report to Congress. This 
highly effective government-to-industry approach has led to 
several deep-water sensor implementations in the Gulf of Mexico 
with several others in progress. I should mention that our 
collaboration has included university support as well. 
Consequently, we've been able to identify and potentially 
prevent structural failure, ensure environmental protection, 
and at the same time improve operations.
    Our venture began with the START treaty as part of the 
counterproliferation of weapons of mass destruction in the 
republics of the former Soviet Union. As a result of that work, 
I was successful in development and application of new advanced 
sensors. In mid- to late 1990s, several oil and gas companies 
approached me about solving problems on a deep-water pipeline 
in the Gulf of Mexico. They needed a sensor that could measure 
pressure on the interior of a subsea pipeline that did not 
require penetrations leading to possible leak paths. After the 
successful task, several more oil and gas projects resulted.
    Twenty years later, significant progress has been made with 
NASA's assistance to advanced technology in oil and gas. Much 
more effort is needed. Astra Technology started a research and 
development project called Clear Gulf approximately a decade 
ago. This effort includes 10 research areas such as 
identification and mitigation of structural integrity that 
could cause significant hydrocarbon spillage.
    Flow assurance monitoring is another research area we're 
addressing to prevent blockage of flowlines from hydrocarbon 
and hydrate formation. Also advanced robotic development will 
fill a significant gap in current large-scale remotely operated 
vehicles. The new robots would work and live subsea. They will 
have dexterous capability and perform finesse work operations 
mimicking human capability. Another exciting research area is 
the repair of older or soon-to-fail structures that are in 
deep-water fields.
    By definition, I believe the role of small business in new 
advanced methods is clearly that of innovation. Large companies 
are highly suited for implementation, and government support, 
encouragement, technology direction, and possible incentives.
    It can be very difficult to achieve implementation of new 
technology methods. A stronger alliance between government and 
industry could solve that problem. I've been very fortunate to 
have a string of successful projects. My journey would've been 
much more difficult without government support.
    My thoughts going forward involve a stronger working 
relationship between small business mainstream oil and gas 
companies, universities, and U.S. Government. My experience 
with oil and gas companies has been very positive. They 
sometimes have fear of trying anything new. However, as we move 
into future endeavors, it becomes increasingly important to 
develop and apply advanced technologies to ensure 
environmentally clean operations, trouble-free work effort, and 
better control of operational processes.
    In conclusion, I recommend the formation of a short-term 
task team that addresses the issues discussed. The team should 
consist of small business entities, DOE, several subject matter 
experts from large oil and gas companies, and universities.
    Thank you again for the invitation and your attention.
    [The prepared statement of Mr. Brower follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       
    Chairman  Weber. Thank you, Mr. Brower.
    Mr. Dimmig, you're up.

                TESTIMONY OF MR. WALKER DIMMIG,

                PRINCIPAL, 8 RIVERS CAPITAL, LLC

    Mr.  Dimmig. Thank you, Chairman Weber, Ranking Member 
Veasey, and Members of the Committee. I appreciate the 
opportunity to discuss energy technology innovation with you 
today.
    Eight Rivers is a technology commercialization firm focused 
on developing breakthrough industrial innovations. Today, I 
will be sharing perspective gained from developing one such 
innovation on the natural gas utilization side known as the 
Allam cycle, which is a new direct-fired supercritical CO<INF>2</INF> 
power cycle for use with natural gas or coal. It projects to 
compete on the cost of electricity basis with existing best-in-
class power plants today. Importantly, the technology does this 
while producing virtually no air emissions. Water and high-
pressure, high-purity CO<INF>2</INF> are the only byproducts of 
the cycle.
    Because the cycle can inherently produce pipeline-ready 
CO<INF>2</INF>, it presents an opportunity to transform the 
enhanced oil recovery industry by providing a supply of 
affordable CO<INF>2</INF>, which would enable over 100 billion 
barrels of domestic oil to be accessed even in low-oil-price 
environments. In order to produce this oil, billions of tons of 
power sector CO<INF>2</INF> would be sequestered. In short, the 
Allam cycle has the potential to be a major win for the 
electricity sector, the oil and gas industry, the environment, 
and consumers.
    Today, NET Power, a company owned by 8 Rivers, the power 
company Exelon, and the engineering firm CB&I is building a 50-
megawatt thermal pilot-scale natural gas demonstration plant 
down in La Porte, Texas, with over $140 million in private 
investment into it. The plant is within months of entering into 
operation, and it is designed to provide the information 
required to then build the first 300-megawatt commercial-scale 
natural gas plant.
    Eight Rivers' experience in commercializing this technology 
and others supports the view that federal government support 
has an important role in energy technology development from R&D 
through to deployment. The R&D process is long, expensive, and 
highly uncertain. Without government participation at this 
stage, it would be difficult for 8 Rivers to execute on its 
model for commercializing important energy innovations.
    Examples of federally funded R&D are present all throughout 
the Allam cycle. Most commonly, 8 Rivers has been able to take 
proven R&D that was originally pursued for other purposes such 
as materials for supercritical coal boilers or heat exchanger 
learnings from a solar program and apply that technology in the 
Allam cycle.
    In addition, the DOE has a new supercritical CO<INF>2</INF> 
crosscutting initiative, and we're hopeful this program will 
lead to opportunities to further advance the Allam cycle in 
important ways. But our experience is also that public-partner 
private partnerships remain critical all the way through to 
deployment of first-of-a-kind commercial plants. The Allam 
cycle is currently entering this challenging period.
    A first-of-a-kind commercial facility needs to operate 
successfully in the market against fully mature technologies, 
and yet it has to do so with costs that are significantly 
higher than even the second facility of its kind. Reasons for 
this can include inefficient supply chains, designs that have 
not yet been fully optimized, large first-time engineering 
costs, increased contingency fees, and even less competitive 
warranties.
    Programs that partner with the private sector through 
grants to assist in building first-of-a-kind projects can be 
essential. One such program is the Clean Coal Power Initiative. 
Importantly, a similar program for natural gas projects such as 
the one IN that Power is now pursuing, does not exist. Cost 
challenges do not completely dissipate by the second plant. 
They reduce over time. Ongoing assistance for these projects 
through mechanisms such as a reformed 45Q tax credit for CCS 
can be critical to ensuring these technologies are able to 
reach their full potential and are not just developed into 
niche applications.
    Finally, we believe federal R&D programs should be very 
goal-oriented across the technology portfolio, and, rather than 
being too technology-prescriptive, programs should have the 
flexibility to pivot with industry to achieve those goals. For 
example, 8 Rivers began by developing the Allam cycle for coal, 
but it became quickly apparent that the coal development 
pathway must first proceed through natural gas. This was the 
lowest-cost, least-risky, and most impactful approach.
    Similarly, federal programs could benefit from being 
structured to work with both coal and natural gas utilization 
technologies as this flexibility could help technologies move 
forward for one fuel in a way that also represents a major 
advance for the other fuel and achieves broader program goals.
    Thank you for the opportunity to testify today, and I 
welcome any questions you have.
    [The prepared statement of Mr. Dimmig follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
     
    Chairman  Weber. Thank you, Mr. Dimmig.
    Dr. Krishnamoorti, you're up.

            TESTIMONY OF DR. RAMANAN KRISHNAMOORTI,

                   INTERIM VP/VC FOR RESEARCH

                    AND TECHNOLOGY TRANSFER,

           UNIV.OF HOUSTON & UNIV. OF HOUSTON SYSTEM;

         AND CHIEF ENERGY OFFICER UNIVERSITY OF HOUSTON

    Dr.  Krishnamoorti. Thank you so much, Chairman. Thank you 
for asking me today to talk about the critical partnership 
between academia, industry, and national labs that are helping 
move the oil and gas industry forward.
    My name is Ramanan Krishnamoorti. I'm the Interim Vice 
President, Vice Chancellor for research and technology transfer 
at the University of Houston, but I'm also the Chief Energy 
Officer.
    Guided by a distinguished panel of the--of our Energy 
Advisory Board comprising top executives from the energy 
industry, we at the--at UH are committed to becoming the energy 
university.
    At the University of Houston, located in the energy capital 
of the world, we strongly believe that fundamental advances in 
science and engineering, when appropriately coupled with 
industry-based pull, can help transform the capital-intensive 
oil and gas industry. Just as hydraulic fracturing and 
horizontal drilling have transformed the availability of shale 
oil and gas, UH is working with industry and national 
laboratories and other academic institutions to create the next 
transformative technologies to advance conventional and 
unconventional, as well as terrestrial and offshore oil and 
gas.
    We are focused on dramatically increasing the amount of 
hydrocarbon resources that can be recovered, while minimizing 
the impact on the environment and therefore ensuring the 
continued supply of affordable energy solutions. Such a focus 
requires commitment to all aspects of the oil and gas industry, 
including regulation, business policy and management, public 
policy, human factors, and naturally, fundamental and applied 
science, engineering, and technology.
    In my written testimony I've provided a detailed report on 
the impact of the University of Houston in providing innovative 
strategies to lower costs and develop safer methods to find and 
produce oil and gas. These innovative solutions include 
responses to immediate challenges and strategic long-term 
disruptive technologies. The key issues are summarized as--I'm 
going to have four points here.
    First, technology innovations require a strong connection 
between industry pull for targeted applications and the 
academic push for fundamental and applied advances in science, 
engineering, and technology. Some notable examples of industry 
collaboration-driven advances are the significant speeding up 
of seismic interpretation through advanced computing, the 
development of smart cements, developing enhanced oil recovery 
formulations for high-temperature and high-salinity reservoirs, 
and sensing and preventing microbial corrosion of pipelines. 
For these innovations to continue, the business of oil and gas 
will require the embrace of human factor-centric design, 
standardization, and system integration.
    The second point is disruptive technologies advances in oil 
and gas are likely to come from fundamental advances in various 
fields, including nanotechnology, life sciences, data 
analytics, and cognitive computing. But given the capital 
expenses and long runways between fundamental research, applied 
development, deployment, and commercialization, those advances 
would require continued engagement by federal and state 
agencies for fundamental breakthroughs and possibly by 
incubation through engaged national laboratories as 
technologies are developed. Specifically, engaging NASA Johnson 
Space Center with the University of Houston and the Subsea 
Systems Institute for the adoption and deployment of automated 
underwater vehicles and risk modeling for deep-water missions 
are examples of best-in-class engagement.
    My third point, the oil and gas industry is challenged with 
so-called crew change as experienced geophysicists, 
geoscientists, engineers, and others retire, taking with them 
an enormous amount of expertise over the next ten years. 
Academia plays a critical role in partnering with industry in 
the continued enhancement of the workforce for this industry 
and the continued engagement of subject matter experts to 
advance technological solution.
    Finally, it is important to emphasize the cyclical nature 
of the industry with boom and bust cycles all too common. 
Combined with the long runways for the development of resources 
such as those in the ultradeep water and those found in high-
temperature, high-pressure reservoirs, the continued 
development of technology innovations remains critical and 
requires sustained public investment.
    Mr. Chairman, at the University of Houston we are proud of 
the interactions we've forged with the industry and the 
demonstrated value of these partnerships. I thank you for the 
opportunity to provide testimony today and look forward to 
answering your questions. Thank you.
    [The prepared statement of Mr. Krishnamoorti follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Chairman  Weber. Thank you, Doctor.
    I now recognize myself for five minutes. This will be a 
question for all of you, which I would like to keep short if we 
can, your answer. We're going to try to get back to some more 
questions. In your opinion, what is the appropriate role of 
government in oil and gas research and development? Let me 
explain. Are we better off focusing limited federal funds on 
applied energy research or the demonstration and 
commercialization of energy technologies? Mr. Johnston?
    Mr.  Johnston. So I would start by saying the leverage of 
the funds of the project that we have I think are a very 
appropriate way to utilize that fund. So we're actually taking 
first principles and marrying them with industry, so trying to 
get to the fundamental issue that's causing the inefficiencies 
in hydraulic fracturing but also bringing partners along with 
that. I think that is a very appropriate role for these types 
of funds in these private-public partnerships.
    Chairman  Weber. Okay. Thank you. Mr. Brower?
    Dr.  Brower. I think one of the fundamental issues about 
research in general in the oil and gas industry starts really 
with the definition of what research and development really is 
because when I made the transition from aerospace into the oil 
world, research is defined much differently in both those 
environments. Research in aerospace oftentimes can start with a 
blank piece of paper and just thoughts as they start to 
generate. In oil and gas, research typically begins with 
something that's already somewhat downstream.
    I think if I were looking at where some of the funding 
could be utilized very effectively, it would be to have a 
hybrid of both those two methods, whereas you're thinking of 
new innovative methods that could solve some of the problems in 
oil and gas and combine that with things that are a little bit 
more mature.
    Chairman  Weber. All right. Thank you. I appreciate it. Mr. 
Dimmig?
    Mr.  Dimmig. I think it's in our experience not an either/
or scenario. I think--we wouldn't have technologies to deploy 
if we don't have a robust R&D base. And we've benefited from 
R&D all throughout the Department of Energy, even R&D that 
wasn't intended for fossil fuels. So we have to start there.
    At the same time I think we have to recognize that certain 
technologies that we think are very promising and the market 
thinks are very promising are very capital-intensive, very 
difficult to get into the market in--with that first 
deployment. And so if we don't follow through with the most 
promising of those technologies, we might leave them behind.
    Chairman  Weber. Okay. Got you.
    Doctor?
    Dr.  Krishnamoorti. I agree with my panelists. It's not an 
either/or. I think we learn some of our best lessons when we go 
to deploy them. When we go to deploy technologies we come back 
and say do we have to do research or fundamental basic research 
that gets applied? And I think we've got to have a complete 
stream of this, but to the boom and bust cycles that are so 
common in the industry are today. Industry funding alone cannot 
move this industry forward.
    Chairman  Weber. Got you. And you're--actually my next 
question, in your testimony you discussed how oil and gas 
production is testing the limits of current understanding of 
engineering principles and presenting new problems along the 
way. For example, you wrote to that, ``As we access more high-
temperature, high-pressure reservoirs with ultradeep water 
exploration production, the material challenges have become 
more significant''. You go on to write that your colleague is 
conducting materials research to develop new polymers to solve 
this challenge. Engineering is a practical field. Do you think 
these practical problems are actually leading to basic science 
research? And before you answer that, you said in your 
prepared--in your remarks earlier you wanted U of H to be the 
energy universe, so we want to make sure that happens. Do you 
think that these practical problems are leading to basic 
research?
    Dr.  Krishnamoorti. Absolutely in that basic research in 
materials design and materials development, processing, and 
deployment is where these practical problems are leading to a 
significant change. And these are not going to just impact the 
oil and gas industry. It's going to have a much broader 
application, for instance, in the aerospace industry. You know, 
the--we've had challenges in the deep water with the hydrogen 
embrittlement of bolts. This has got parallels to the aerospace 
industry, and what we've learned from either of those fields 
has led to really understanding and improving the technology in 
the field.
    Chairman  Weber. Thank you.
    Mr. Johnston, I'm going to jump back to you. Can you give 
us an update on the research at GTI's hydraulic fracturing test 
site? What are some open problems that the scientists and 
engineers are trying to understand?
    Mr.  Johnston. What they're really trying to figure out now 
is actually where the proppant goes through the--so we--in this 
project we actually physically, chemically, and radioactively 
trace the proppant so that we have a better understanding of 
what happens within the transport mechanism. So today, it's 
really more of analyzing the production, inferring information 
about the physical evidence that we have, and validating and 
building new models that really help understand, you know, the 
process.
    Sometimes you induce as many questions as you answer with 
projects like this, and I think that's why, you know, continued 
research in this field is very important.
    Chairman  Weber. Well, that's true about a lot of research 
in----
    Mr.  Johnston. It is.
    Chairman  Weber. Yes.
    Mr.  Johnston. It is.
    Chairman  Weber. All right. My time has expired. I'll now 
recognize Mr. Veasey.
    Mr.  Veasey. Thank you, Mr. Chairman. And this question is 
for Mr. Dimmig.
    Mr. Dimmig, the IEA, among many other widely respected 
analysts and institutions, has concluded that developing and 
deploying carbon capture technologies in the power generation 
sector, notably including such technologies for natural gas-
fired power plants, will be critical to achieving the goals of 
the Paris agreement. I wanted to ask you, because NET Power is 
developing a unique design for a natural gas power plan, which 
would completely eliminate the smokestack, how do you see 
designs like yours fitting into the long-term emissions 
reduction strategy of the United States and other countries 
that are participating in the Paris agreement?
    Mr.  Dimmig. We think it's critical. We've looked at all of 
the sort of major studies out there, and I would agree they all 
tend to conclude that without CCS, we're not going to get to 
the various climate goals we've set. So at 8 Rivers we view 
finding a fossil fuel solution to carbon emissions as a 
critical requirement mostly because we also see that fossil 
fuels aren't going anywhere. We have abundant oil and gas here 
in the United States. We'll be using that for some time to 
come.
    There's abundant oil and gas around the world. Coal is 
being utilized in the developing world quite abundantly, so we 
know these fuels are going to be used and we know in order to 
meet these goals, we're--then we're going to have to deal with 
carbon emissions from that. Our main goal is to try to make 
that sort of an economically relevant choice to make--give 
people the option to build a plant using low-cost abundant 
fossil fuels and do so in a way that limits or eliminates 
carbon emissions and not make it an environmental or an 
economic choice and make both options palatable in the same 
facility.
    Mr.  Veasey. As developing countries try to improve their 
way of life, how do you see these technologies playing into all 
of this for those places around the world?
    Mr.  Dimmig. You know, I think the developed world sort of 
built its economies on the back of abundant low-cost fossil 
fuel. Those fields are also abundant in the developing world, 
and if we want--you know, those folks are going to want to 
bring the same quality of life and type of lifestyle we have in 
the developed world to their world. And so fossil fuels are 
going to be utilized to do that. We have an opportunity to do 
that differently. We have an opportunity to do that by building 
from the start even cleaner infrastructure to utilize those 
fossil--those low-cost abundant fossil fuels.
    Mr.  Veasey. One of the key challenges that have plagued 
carbon capture projects is scalability. I know your pilot scale 
project is 1/10 the size of the eventual powerplant that NET 
Power would like to commercialize. What are some of the 
challenges that NET Power faces in scaling the technology?
    Mr.  Dimmig. Sure. So we started by designing a commercial-
scale plant rather than focusing on sort of taking R&D and 
scaling it just to whatever we felt like the next most cost-
effective size was. We said what does the best commercial 
product look like and then we scaled that as small as we could 
to build a demonstration plant without trying to fundamentally 
alter that design, fundamentally alter the equipment in the 
plant. So every piece of equipment in that plant is being 
supplied by a supplier that can also supply the same piece at a 
larger size. So we're very confident about the all the 
equipment in that facility.
    The key piece then to scale would be the turbine. That 
turbine does not exist yet at a larger scale, but we're 
benefiting from the fact that that turbine could only be made 
so small due to the pressures of the system so it's actually 
operating at less than its full capacity and that will--that 
turbine will actually--in the demonstration plant, it'll 
actually then scale up to a commercial plant more of a 4X 
scale-up than a 10X. So we really reduce the scaling as much as 
possible and eliminated sort of technology changes from small 
scale to commercial scale.
    Mr.  Veasey. Interesting. And in your opinion--because we 
always have this debate on this Committee is what role do you 
see government playing in helping with the scaling up of the 
technologies like the one you're testing?
    Mr.  Dimmig. Yes, as I mentioned in my written testimony at 
length and then a little bit of my oral testimony that there--
as you scale up, there are new risks even if you have the same 
piece of equipment and you're just making it larger. There's a 
new turbine in the middle of a plant like this. It's got to 
operate against very, very mature technologies such as, say, 
natural gas combined cycle plant that's been in the market 
operating and becoming efficient for 40 years. So it's a very 
challenging hurdle to overcome. And so when we take that step, 
you have to figure out how to make that plant--that first plant 
more cost-effective against what's in the market today.
    Mr.  Veasey. Mr. Chairman, I yield back. Thank you. Thank 
you, Mr. Dimmig.
    Chairman  Weber. I now recognize Mr. Dunn for five minutes.
    Mr.  Dunn. Thank you, Mr. Chairman.
    This is a fascinating subject. I could quiz you guys all 
afternoon, but let me jump right in here and start with Mr. 
Johnston. So the shale revolution, talk about the first, I 
would like to get a sense of how that actually impacts the 
average American family and if you could also tell us--sort of 
give us a time horizon how long can we count on our shale 
revolution to take care of us?
    Mr.  Johnston. Well, we refer to it as the shale evolution 
because there was decades of investment and field experiments 
that went into this where, you know, most people do see it as 
an overnight occurrence. The average American family today is 
getting approximately $1,400 back into their pockets through 
lower utility bills on the electric and gas side together 
because there's been such a shift in power generation from coal 
to natural gas and lower gas bills as well.
    If you look at--just take the Permian basin, for example, 
you know, it's just one basin but it is now the world's--
considered by many the world's largest super basin of 
hydrocarbons. And with estimates of 160 billion barrels of oil 
and looking to double and beyond and you'll see kind of similar 
growth----
    Mr.  Dunn. Well, what technology barriers do you see to 
continuing to efficiently extract all that potential?
    Mr.  Johnston. Yes, it's really more fundamental learning 
than I think it is the technology itself. It's really about 
being able to understand and predict where you actually make 
the fractures because, as I pointed out, so many of these are 
not actually producing toward the overall production of the 
well. So it's about having a better understanding of how the 
fractures propagate. There could be some fundamental things and 
materials in the proppant itself and having more intelligence 
with the proppants. But it's really about predictive analytics 
at this point.
    Mr.  Dunn. Thank you. So I want to turn my attention to Mr. 
Brower. I loved your bio. Sometime I want to get you to come 
back and tell us how you make a spaceship on the moon--out of 
the moon. That's a great, great background there. But I'm going 
to ask you a different question, though, today. What--you have 
a relatively small company and a very exciting company. What 
impact are you going to be making on the shale revolution?
    Dr.  Brower. Well, hopefully bigger than most of us think. 
You know, the--it's the ideas I think that are generated that 
have the impact and not the size of the company. You know, I 
think back to some of the early pioneers in technology such as 
Thomas Edison, you know, just a very small group of people that 
were able to come up with some great innovations. And, you 
know, he met with a lot of opposition, too, when he was 
developing the lightbulb. Most people were really opposed to it 
because they thought, you know, we already have kerosene lamps; 
why do we need an electric light bulb?
    You know, and so I think that we come up with those kind of 
barriers whenever you--whenever we innovate something new. 
There's resistance to anything new in a certain level, some of 
it a lot of resistance and some of it much more gentle. But I 
think that the concepts are what really make the difference 
rather than the size of the company.
    Mr.  Dunn. And I was actually very fascinated by all the 
areas you're--you've fringed into professionally in your life.
    Mr. Dimmig, I'm going to ask you because you have such a 
great testimony, more written than oral here. If you can direct 
us may be offline to more information on the Allman cycle 
that's more than we can dive into in the remaining minute we 
have here, but I'm just going to ask you if you could have 
somebody send us on the Committee more information on how that 
energy cycle actually works, just a simple request.
    Mr.  Dimmig. I'd be happy to do that. Thank you.
    Mr.  Dunn. Thank you very much. And then, Dr. 
Krishnamoorti, so we're talking about an insufficient supply of 
engineers and scientists. What's the University of Houston 
doing about that?
    Dr.  Krishnamoorti. Well, we started a petroleum 
engineering program seven years ago. We now have 1,000 students 
in that program. We've created the nation's only subsea 
engineering program, and today, we are graduating about 50 
graduate students annually in that program. We've created a 
program that is focused on upstream data analytics that is 
looking at how do you bring all the advances we've done in 
high-performance computing and data analytics to the upstream 
world.
    Mr.  Dunn. So I'm not going to trip you up with that 
question. That's--good job. Thank you very much, Mr. Chairman. 
I yield back.
    Chairman  Weber. Thank you, sir.
    The Chair now recognizes the gentleman from California, Mr. 
Takano, for five minutes.
    Mr.  Takano. I thank the Chairman.
    My question--my first question is for Mr. Johnston. Mr. 
Johnston, data released by the Occupational Safety and Health 
Administration, OSHA, shows that the rate of severe injuries 
across various--well, it shows the rate of severe injuries 
across various U.S. industries. The upstream oil and gas 
industry was once again one of the more dangerous places to 
work according to these--this report. It tends to have a low 
injury rate but a very high fatality rate. What is the industry 
doing to improve safety for oil and gas industry workers? Is 
there anything on the technology and research front that 
industry is funding or could fund to bring the fatality rate 
down?
    Mr.  Johnston. Thanks for your question. I grew up as a 
roughneck on an offshore drilling rig, so this is something 
kind of personal to me.
    Mr.  Takano. Yes.
    Mr.  Johnston. So, you know, it is a hazardous occupation. 
I would have to say that safety, it starts with culture and 
engineering controls, administrative controls, and things of 
that nature. From the time that I worked offshore in the '80s 
to what I saw on the--our hydraulic fracturing test site is a 
huge transformation and attention to safety and culture and so 
on. I was very impressed with what our host site Laredo was 
doing. I'm also our executive sponsor of our corporate EH&S 
team. So I think it really starts with having that commitment 
to a safety management system.
    As far as specific technology, GTI is not developing any 
technology in the upstream oil and gas sector that's safety-
related. We do more in the downstream segment of that business 
with the distribution companies and public safety in that 
regard. I'm sure, though, that the industry is--has a keen 
awareness on that.
    Mr.  Takano. I'm not--you know, I'm not from Texas. I 
don't--I'm not around it.
    Mr.  Johnston. Yes.
    Mr.  Takano. I'm just wondering is--are refineries 
considered upstream or downstream?
    Mr.  Johnston. Downstream, yes.
    Mr.  Takano. Yes. I mean, I--we do have refineries in 
California----
    Mr.  Johnston. Yes.
    Mr.  Takano. --and I know that we've had some serious 
incidents and accidents in those types of environments. And I'm 
just wondering if there's any way in which there can be an 
improvement in technology there or more intensive research.
    Mr.  Johnston. Certainly. There's a great book called 
Failure to Learn that is a historical recount of the Texas City 
Refinery explosion and the deaths that occurred. Every one of 
my directors has read it. I bought them all copies of it 
because I think that's one of the key pieces of that. But 
there's certainly monitoring technology and advanced controls 
and things that are continuing to accelerate down the 
technology path.
    Mr.  Takano. Well, thank you.
    Mr. Dimmig, I'm going to try and get this question in. Some 
of my colleagues across the aisle often complain that the 
Department of Energy is, quote, ``picking winners and losers,'' 
end quote, and interfering with the free market by, quote, 
``crowding out private investment,'' end quote. I would be 
interested in your perspective given NET Power's experience in 
utilizing technologies developed by government, as well as in 
securing private sector investment. Should the Department 
support all research proposals in areas equally or should it 
prioritize investments based on where we can get the most value 
for taxpayer dollars?
    Mr.  Dimmig. I think it should--there should be a priority 
on value. And I think at the end of the day if we believe that 
these technologies--there's a great public interest in having 
them available to us and that the R&D was worth it and we want 
to sort of get them into the market. Ultimately, there will be 
winners and losers selected and I think it--the key is to have 
market pull because the market is very good at picking winners 
and losers. And so getting market--the market to really drive 
those decisions but have the DOE and the federal government as 
a partner I think is a smart way to sort of blend the benefits 
of both.
    Mr.  Takano. Dr. Krishnamoorti, I see you nodding your 
head. Do you agree with that?
    Dr.  Krishnamoorti. Absolutely. The idea of having an 
industry pull is critical in determining what types of 
solutions we put together. It cannot be done in isolation of 
industry pull.
    Mr.  Takano. Well, has the Department picked a lot of 
important winners in the past few decades such as--well, hasn't 
it really picked some important winners and losers in the past 
few decades such as breakthrough hydraulic fracturing 
techniques? Is this a bad thing?
    Mr.  Dimmig. No, I don't think that is a bad thing. And 
again, it's--there's industry involvement, industry pull that 
really helped drive that technology into the market, but 
clearly, the Department of Energy and the federal government 
had an important role in getting that technology to market and 
then out the door.
    Mr.  Takano. Before I yield back, I'll just note for the 
record that Dr. Krishnamoorti was also nodding his head.
    Chairman  Weber. Did the gentleman yield back?
    Mr.  Takano. I did.
    Chairman  Weber. Okay. And did you say that the other side 
was complaining? You know, we're husbands. It's in our job 
description. I'm just saying.
    The gentleman from New York is recognized for five minutes.
    Mr.  Tonko. Thank you, Mr. Chair. The energy challenges 
facing the United States today are real and growing. The only 
way to meet these challenges is by investing in research and 
development. Having an R&D portfolio that covers the spectrum 
from advances in basic sciences to cutting-edge technology 
development, testing and deployment greatly augments the 
critical work being done by our private sector in our nation's 
colleges and universities. Sustained support of these advances 
produces significant economic dividends for the United States, 
lowering costs and improving performance of widely used energy 
technologies.
    President Trump's fiscal year 2018 budget proposal would 
deal a critical blow to the United States cutting-edge 
innovation and research in the energy field. It would carve 
away at critical programs, including the Department of Energy's 
Office of Energy Efficiency and Renewable Energy, DOE's Office 
of Science, and even the visionary energy advancements being 
achieved through ARPA-E, the Advanced Research Projects Agency 
for Energy, with a proven record of moving the horizon of 
energy research forward.
    At a time when we should be adding to our investments in 
our nation's future, these cuts would put American research and 
innovation far behind that of other nations. Many members claim 
to support an all-of-the-above strategy for energy production. 
I believe we also need an all-of-the-above energy research 
strategy to complement it.
    I recognize the value of federal fossil fuel research when 
it helps us to achieve greenhouse gas emission reductions, 
improve efficiency, and protect Americans' public health and 
safety. That is why I have authorized bipartisan legislation--
I've introduced bipartisan legislation to authorize a gas 
turbine efficiency R&D program. Without DOE's support, we will 
lose our nation's advanced manufacturing edge to countries that 
are investing in advanced turbine research.
    Instead, with appropriate investments in turbine efficiency 
research, we can be saving and creating American jobs while 
we're working to reduce emissions. Simply put, an all-of-the-
above approach cannot be limited to oil and gas technology. We 
must support research targeting renewables, storage, grid 
modernization, and all other viable options to secure our 
nation's energy independence and our global leadership in 
energy innovation.
    Advanced Research Projects Agency for Energy, or ARPA-E, 
modeled on the Defense Department's DARPA program, invests in 
high-potential, high-impact technologies that are too risky for 
the private sector at this time. ARPA-E is advancing America's 
competitiveness around the world. It has fostered cooperative 
projects with academic, federal, and private sector 
researchers, pushing forward cutting-edge ideas with an eye 
toward the marketplace.
    So, Mr. Johnston, as far--as it has been widely reported, 
we understand that ARPA-E is now subject to a no-contract 
action order which prevents the program from taking any action 
to distribute and manage fiscal year 2016 or prior year funds, 
as directed by law. It has also been reported to Committee 
staff that, as part of this order, requests for routine no-cost 
extensions of contracts, which are critical tools for effective 
program management, are not even being considered by the 
agency.
    GTI is currently leading or participating in several active 
and announced ARPA-E projects. So to the best of your 
knowledge, how has this no-contract action impacted the work 
you do or what you need to move forward in terms of research?
    Mr.  Johnston. Thank you for the question. We had received 
notification of an award through the refuel program back in the 
fall, and that particular project has not been contracted yet, 
so it's been delayed. We go through a period of negotiation 
with Contracting Officer and the Program Director, and it's--
you know, it's clearly in DOE's court now before that contract 
is initiated.
    Mr.  Tonko. Is such an order unusual in your experience?
    Mr.  Johnston. It's not unusual to have delays when there 
is an administration change. This one seems to have gone on, 
you know, a little bit longer than typical.
    Mr.  Tonko. And in regard to the new contract action----
    Mr.  Johnston. I'm not sure of the no-contract action. I 
just kind of look at our internal process and see that, you 
know, an award was made and it's--you know, it's 8 months into, 
you know, the notification and we still don't have a contract.
    Mr.  Tonko. Beyond ARPA-E, have you encountered similar 
issues in working with or receiving funding from other DOE 
programs within the last few months?
    Mr.  Johnston. Have we received others?
    Mr.  Tonko. Yes.
    Mr.  Johnston. Yes.
    Mr.  Tonko. And such as?
    Mr.  Johnston. In the Fossil Energy Office we have a 
supercritical CO<INF>2</INF> Brayton cycle project that's a 
large project with other partners through the Fossil Energy and 
NETL.
    Mr.  Tonko. So what impact will that have?
    Mr.  Johnston. Of getting that project? Well, we just 
kicked the project off and so, you know, our teams are now 
fully engaged in delivering that project, and it's a team of 
different research institutes and other researchers.
    Mr.  Tonko. Thank you. I'll yield back, Mr. Chair.
    Chairman  Weber. Thank you, sir.
    The gentleman from California is recognized.
    Mr.  McNerney. Well, I thank the Chair. I thank the 
witnesses. I'm going to be confining my questions to shale oil. 
In California we're very concerned about groundwater. We have a 
limited amount of it. We have a limited amount of rain. What 
are the best ways to minimize contamination of groundwater in 
the shale process, Mr. Johnston?
    Mr.  Johnston. So as far as groundwater, I think it's all 
about surface retention. There's, you know--the actual 
hydraulic fracturing happens so far between--you know, below 
the groundwater table----
    Mr.  McNerney. Right. Yes.
    Mr.  Johnston. --that there's really, you know, 
infinitesimally small risk that could ever happen unless you 
had a surface casing issue. But really, you're probably much 
more limited to surface type of contamination to groundwater.
    Mr.  McNerney. Surface----
    Mr.  Johnston. Spills or something of that----
    Mr.  McNerney. Okay. I'm not quite sure I'm convinced, but 
I've heard that before so I will go with that for now. What 
about--what's the best way to minimize leakage of methane into 
the atmosphere from the fracking process? Or are you the right 
person to ask that question?
    Mr.  Johnston. I'm certainly--I've been around--I was on my 
first frack job in 1985, so I've been around it for a little 
bit. So fracturing from the--or methane emissions from the 
hydraulic fracturing process are typically lower than they are 
from actually conventional gas production. As with anything, 
you know, I think operators want to keep as much of the product 
as they can.
    Mr.  McNerney. Right.
    Mr.  Johnston. The real significant points of the process 
that have more--are more apt to leak methane would be through 
the flow back process. And you can have green completions where 
you actually capture the methane through that process, in the 
gas processing process as well. So--and sometimes in storage--
--
    Mr.  McNerney. So would regulations be the way to encourage 
companies to use that technology?
    Mr.  Johnston. What I see that's been very effective today 
is when policymakers, environmental NGOs, and industry can come 
together and have a discussion and develop, you know, policy 
around that. I look at Colorado, for example. They have what I 
would consider to be a great case study of how you address 
methane reductions and a methane target within a state. And 
then, you know, there's technology--Senator Tanaka--or 
Congressman Tanaka mentioned ARPA-E.
    Mr.  McNerney. Right.
    Mr.  Johnston. There's a lot of new technology actually 
coming out of the ARPA-E monitoring--monitor program that will 
be there for the commercial sector to bring into account so a 
lot more monitoring of more remote sites on the horizon.
    Mr.  McNerney. Mr. Dimmig, do you agree that 
environmentalists, industry, and policymakers come together to 
find solutions?
    Mr.  Dimmig. I do. I do. We work quite extensively with 
NGOs to try to educate them about what we're doing and learn 
from them about where their concerns are and figure out how we 
can address those. Methane emissions is one of those areas. And 
from our conversations and where we see things with monitoring, 
many of these emissions issues are very easily addressed. But 
we have that conversation on the--very regularly with NGOs and 
policymakers.
    Mr.  McNerney. Okay. Good to hear. Mr. Johnston, again, 
concerning wastewater, there's a significant and growing 
concern about the wastewater injection back underground causing 
earthquakes and other sorts of problems. Would it be feasible 
to require fracking operations to clean up the wastewater so 
that it can be usable if not potable?
    Mr.  Johnston. I think it's--in some instances it's more of 
a market question because they can dispose of this water so 
inexpensively, and specifically in the--and what you've seen in 
Oklahoma and some of the other areas. It's actually not from 
shale where a lot of this water is being produced. It's from 
the Mississippi lime formation and that's what--and that--a lot 
of that deep-water injection has caused some of the induced 
seismicity in the Arbuckle formation there. They seem to be 
able to manage that pretty well as a reduce the amount.
    You know, we're constantly looking for technology and 
innovations that make that decision very easy for operators to 
recycle as much of the water and to clean it up as--and reuse. 
So that's a big priority for GTI.
    Mr.  McNerney. Okay. All right. Mr. Chairman, I'll go ahead 
and yield back and let you terminate the hearing if you wish.
    Chairman  Weber. Actually, we're--I think we're going to do 
a second round of questions if you have more, Jerry, so hang in 
there.
    Gosh, where do I start? Well, let me do it this way. Mr. 
Johnston, I'll start with you. What policies could Congress and 
DOE implement to encourage more industry-led development--
research and development efforts? Are there existing--in other 
words, what policies could we implement, more industry-led 
research. You talked about being a roughneck basically back in 
'85. Is that what you said? Okay. So you've watched this 
industry develop. So how do we get industry more involved?
    Mr.  Johnston. Well, one of the reasons I wanted to 
highlight the project that we have today is just that. I mean, 
how--I mean, that's tremendous leverage. It's working on a big 
problem, and it takes lots of different stakeholders to come 
together and solve the problem. So I think if you set out more 
grand challenges that can really have an impact for consumers, 
for industry, for the government to be able to point to that 
impact that they're making, I think that's the way to do it.
    That's one thing I really like about, you know, even the 
ARPA-E model is they put big stakes in the ground and you have 
to innovate to those, so not be prescriptive but put big 
opportunities out there and let innovators and in the industry 
come together to try to solve those.
    Chairman  Weber. Okay. Mr. Dimmig, I want to come to you 
offline afterwards. I'm very interested--you know, I own an air 
conditioning company, furnaces. We're about 80 percent 
efficient, so natural gas, about 20 percent of the heat and 
energy goes out the roof through the vent, and I'm curious 
about how exactly you all intend to get them to zero emissions.
    But I want to come to the doctor here. When you talk about 
those kinds of measuring--or maybe it's Mr. Brower, I'm not 
sure or both of you--measuring--being able to measure abilities 
of pipelines subsea. You talked about ROVs, unmanned ROVs, 
subsea, acting like human capabilities--I think it was you--
where you can measure that pressure differential or pressure 
change. My question is would--could that be applied downhole 
when that drilling is happening onsite? When you've got a 
wildcat or a rig going, are you able to measure pressure on 
those kinds of downhole or is that just out of the question?
    Dr.  Krishnamoorti. Measuring anything downhole while 
drilling is extremely difficult. The head of the bit is a real 
challenge. But there are technology solutions that are coming 
through right now that are likely to transform that. One is 
through smart fluids, putting fluids that can actually measure 
ahead of the bit has become a way to control fluid loss. The 
other is looking at acoustic signals that are able to look 
beyond the drill noise and be able to actually tell what's 
going on in the head of the bit. And those are coming along. In 
perhaps 3 to five years those technologies will be mature.
    Chairman  Weber. Okay. Well, if you can shorten that, we 
can get you more money. I'm just saying.
    Mr. Brower, would you agree with that?
    Dr.  Brower. Yes, I agree with shortening it, too.
    Chairman  Weber. I figured you'd like that.
    Dr.  Brower. Yes, the faster the better. Downhole 
measurements like differential pressure in downhole is like the 
Holy Grail of measurements in that arena. It's very difficult 
to get. Right after the Macondo incident, I was asked by BP to 
participate on one of their steering group, and that was one of 
the items that we addressed.
    There--that there is ways and there are ways to do downhole 
monitoring. As the doctor said, it's extremely difficult. We 
have certain monitoring methods that we use and are continuing 
to further develop that are used in the deep-water area that we 
are now starting to put into downhole operations. And so I 
think in the next little--you know, in the next few years that 
it will be very doable to get those differential pressure 
measurements----
    Chairman  Weber. Recently, I heard GE's plant--they would 
build blowout preventers that are megatons and they use 
redundancy in putting those on the floor of the ocean, for 
example. So it's a very interesting thing that we can monitor 
that.
    But, Doctor, I want to come back to you. Mr. McNerney from 
California had some questions about the water issue. Would you 
like to further expand on that? Do you want some more time?
    Dr.  Krishnamoorti. Sure. So there are some very 
interesting technologies that are in place that are allowing 
for the use of geothermal energy to clean up the water. These 
are being done through nanotechnology. There is a startup 
company from the University of Houston----
    Chairman  Weber. Geothermal onsite?
    Dr.  Krishnamoorti. Onsite. So they're able to bring--not 
use fossil energy but use geothermal energy to clean up water. 
This is a nanotechnology company called Wave. They have got--
they've developed these materials that can pull out most of the 
contaminants that are there and make the water as good as 
potable water. And that's the kind of thing--even though you 
can clean it up, the idea is to reuse and recycle that water so 
that it can be used for re-fracking or for other fracturing 
operations.
    Those--I think that's an opportunity where the challenge 
has been there. These are technologies that have been developed 
for other applications such as in the developing world where 
clean potable water has been a challenge, and those are being 
brought to bear on the oil and gas industry.
    Chairman  Weber. Thank you, Doctor. I'm going to yield my 
time and go to Mr. Veasey.
    Mr.  Veasey. Yes, thank you, Mr. Chairman. My question is, 
again, for Mr. Dimmig. I know that NET Power intends to use the 
captured carbon dioxide for EOR. If carbon capture technologies 
are expanded widely across the market, will the capacity for 
additional CO<INF>2</INF> EOR meet the influx of carbon dioxide 
that will be available or would the there be a market 
saturation?
    Mr.  Dimmig. In most of the analyses we've seen are that 
there's a huge opportunity for CO<INF>2</INF>-based enhanced 
oil recovery, and that opportunity can absorb the carbon 
emissions from really gigawatts of power plants. So there's a 
study by Advanced Resources International that argues there are 
100--about 100 billion barrels of next-generation CO<INF>2</INF> 
EOR barrels recoverable, economically recoverable, and I think 
those--to recover that oil would require 33 billion tons of 
carbon dioxide, which is approximately I think--it was 260 or 
280 gigawatts of natural gas plants over a 35-year life.
    Mr.  Veasey. Well, thank you very much.
    Mr. Johnston, to many, the idea of using carbon captured 
dioxide to extract additional greenhouse gas emitting 
resources--in this case oil--seems to run counter to the 
purpose of capturing carbon dioxide in the first place. Can you 
explain why CO<INF>2</INF> EOR--how that benefits the climate?
    Mr.  Johnston. Well, currently, you know, most--a lot of 
the EOR operations come from natural--naturally occurring so 
it's mined basically. It's drilled for to produce the 
CO<INF>2</INF>. And if you take anthropogenic CO<INF>2</INF> 
from power plants or other industry and you reuse that in an 
EOR application, you're actually sinking that and it becomes a 
miscible fluid. It helps, you know, bring up that tertiary 
produced oil that you can't extract today.
    So I think IEA did a study where they're looking at if all 
the potential EOR applications that are technically recovery 
were done, there would be like a 63 percent carbon reduction 
from using manmade CO<INF>2</INF> for enhanced oil recovery.
    Mr.  Veasey. Amazing. So in that same context can you 
explain what a carbon advantage barrel of oil actually means?
    Mr.  Johnston. I would have to infer that it's something on 
that, you know, guideline. I'm not really dialed into that. But 
it--I think it has to do with using the manmade CO<INF>2</INF> 
to bring that oil to bear to the market.
    Mr.  Veasey. Okay. Do you have an estimate of how much 
private industry invests in R&D into new technologies annually 
compared with the Department of Energy's Office of Fossil 
Energy?
    Mr.  Johnston. Are you talking about across the value 
chain----
    Mr.  Veasey. Yes.
    Mr.  Johnston. --of oil and gas? I mean it's orders of 
magnitude more than what DOE would put in. I mean, because the 
Fossil Energy Office has put 600--roughly $600 million a year. 
I think, you know, there--it'd be orders of magnitude more by 
industry, you know, across--are you just talking about the 
United States? Even it's at least an order of magnitude, 
probably higher.
    Mr.  Veasey. Okay. That would be interesting to have--to 
see those numbers. Would the government best fulfill its 
obligation to the public by pursuing more efficient extraction 
methods and technologies or by pursuing more effective 
environmental protections?
    Mr.  Johnston. Could you repeat that? I'm sorry.
    Mr.  Veasey. Yes, absolutely. Would the government best 
fulfill its obligations to the public by pursuing more 
efficient extraction methods and technologies or by pursuing a 
more effective environmental protection policy?
    Mr.  Johnston. Yes, you know, those things are so closely 
coupled, and I don't think people realize that or a lot of 
people, so--and as I pointed out in my testimony, the more 
you're driving that efficiency, the more you're reducing the 
environmental impacts and the community impacts on top of that, 
which is very important to people. So I think they are much 
more tightly linked and it's not an either/or, and I think 
that's the conversation we should be having more.
    Mr.  Veasey. Mr. Dimmig, do you--it looked like you 
wanted--did you want to comment on that? Okay. All right. No, 
thank you, Mr. Chairman. I yield back my time. Thank you.
    Chairman  Weber. He wasn't going to touch that with a 10-
foot drill stem.
    Mr. McNerney?
    Mr.  McNerney. Well, I thank the Chairman again.
    You know, shale revolution really has changed our country's 
energy outlook. In 2007 we were talking about running out of 
oil and prices and all, and now we have oil. We're talking 
about exporting natural gas. But shale has a bad rap. I mean, 
it does. If you look at the State of Maryland, didn't they just 
pass a law that would forbid fracking? I mean, states, even 
Oklahoma, there's a lot of concern out there about shale.
    So what can we do? Is it more government regulation? Is it 
just improving technology? I mean, I'm at a little bit of a 
loss here. How do we change that image of fracking as a nasty, 
polluting, earthquake-causing business?
    Mr.  Dimmig. Sure, Professor.
    Dr.  Krishnamoorti. So I direct you to my testimony. There 
is a report that the Academy of Medicine, Engineering, Science, 
and Technology at the State of Texas is creating is led by one 
of our UH faculty members Christine Economides. She's a 
National Academy of Engineers member. They have looked at all 
of the different aspects of shale gas, and this is the 
technology, the water, the infrastructure, and there are best 
practices in place that can be put in play that will ensure 
that this can be done safely, can be done economically, and can 
be done in a way that actually minimizes environmental and 
infrastructure damage. And I think those are the best practices 
that have been established. It's been about 10, 12 years of the 
industry working really hard to do it rights.
    And I think even though there has been a lot of publicity 
about the ills of shale gas and the unconventional resources, I 
think that this is a resource that, if managed right and if 
done right, can be an incredible resource for all of us.
    Mr.  McNerney. Well, I mean, you talk about best practices, 
okay, but it just takes one or two bad players to give the 
whole industry a bad rap. And, I mean, is it going to take 
additional government regulation or enforcement? I mean, how 
are we going to make sure that the industry follows those best 
practices?
    Dr.  Krishnamoorti. So the challenge is how distributed the 
resources and how many operations that are continuously being 
developed or drilled and production. And so to try and do this 
by just simply regulatory oversight is a mistake. This has to 
be a partnership with the industry and with best practices 
being put in place and where the effectiveness is monitored by 
the industry. It cannot be monitored by regulatory agencies.
    Mr.  McNerney. I don't quite buy that. I mean, that's like 
saying you're going to have the financial industry regulate 
itself. No, that doesn't work.
    Mr. Johnston, did you want to chime in here?
    Mr.  Johnston. I do think that having un-polarized 
conversations would be a good start. And I don't know who is 
the facilitator----
    Chairman  Weber. Yes, we'll get right on that here in 
Congress.
    Mr.  Johnston. Yes, exactly. I wasn't going to bring that 
up. But anyway--but, I mean, that would be a huge start, just 
to bring the NGOs, industry, and policymakers together to 
really--because we have an unprecedented opportunity. You know, 
you talk about in our country going to--being an exporter of 
hydrocarbons and, you know, ten years ago we were talking about 
building LNG import terminals and, you know----
    Mr.  McNerney. Now we want to know how to make them export 
terminals.
    Mr.  Johnston. Yes.
    Mr.  McNerney. But, I mean, the thing is even if the United 
States--all the players in the United States are good, you 
know, angels and they don't ever--they follow best practices, 
then we're--there's other countries in other parts of the world 
that are going to take up this technology and they're going to 
be bad players. So, I mean, we still have a huge challenge in 
terms of our leadership and in terms of our example on how we 
do this.
    Mr.  Johnston. Yes. Fracking is not a good, you know, name, 
right, anywhere you look, and it's painted with a broad brush--
--
    Mr.  McNerney. Yes.
    Mr.  Johnston. --whether it's actually the culprit or not. 
And I don't know how you redirect that conversation, but, you 
know, it's been around since 1947. It's not--it's--and, you 
know, I don't know how you change the conversation, but that's 
really what needs to happen.
    Mr.  McNerney. I mean, as a tree hugger, I want to see more 
renewables and maybe more nuclear, but we can't just turn off. 
And so we're going to have to rely on fracking, and we want it 
to be as clean and as safe as possible.
    Mr.  Johnston. Well, there's ways to--you know, there are 
best practices and I think there are commonsensical ways to 
address the issues that are out there. Like I said, I pointed 
to Colorado in the case of methane emissions. That's a great 
case study and then how you take that from there.
    Mr.  McNerney. All right. Thank you, Mr. Chair. I'm going 
to yield back to you.
    Chairman  Weber. Okay. Well, now that we have fixed all 
those problems, I want to thank the witnesses for their 
valuable testimony and the Members for their questions. Jerry, 
thank you for your difficult questions, too. I mean, that's a 
lot of frank discussion. I appreciate that.
    The record will remain open for two weeks for additional 
comments and written questions from the members. This hearing 
is adjourned.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
